                     CLOSEOUT FOR M94040013
     This case came to OIG on April 2, 1994, when we received a

complainant ex@Fessed concern about the refusal of 4-m




was a co-experimenter on the grant.
     At various times, the subjects, their assistants, and the
collaborator supplied the complainant with copies of the subjects'
data. The complainant published an article based on these data.
In a rejoinder to the article, the collaborator announced to the
scholarly community that copies of the data were available for
purchase. The subjects then directed the collaborator to deny the
scientific community further access to the data and to attempt to
recall copies of the data from scientists who had already purchased
them from him.
     OIG determined that the subjects' actions violated a promise
the subjects made in their proposal that their data would be made
"readily available for scholars throughout the world." We further
determined that their actions violated NSF's policy on openness in
scientific communication. NSF policy, unanimously adopted by the
National Science Board, explicitly recognizes the importance the
community attaches to openness by "expect[ing] investigators to
share with other researchers,    ... within a reasonable time, the
data . . . gathered in the course of the[irl workn (Grant Proposal
Guide, NSF 94-2,page 21)  .  We concluded that, by any reasonable
interpretation, this policy would mandate that fifteen years after
the PIS collected data under an NSF award they ought to make the
data readily available to other scholars.
     OIG recommended to NSF that it take action to ensure that the
subjects' data were publicly available and that researchers other
than the original PIS were free to publish analyses of them. The
NSF division that currently funds research in the subjects'
                              page 1 of 2                   M94-13
discipline sent the subjects a letter asking that they make their
data available to other scientists. In his response, Subject #1
agreed to make the data available and explained how he proposed to
do so.      NSF management considered Subject #l s response
satisfactory and has no plans to take further action. OIG decided
that the subjectst earlier reluctance to share their data did not,
as such, rise to the level of misconduct.
     The complainant is involved in an ongoing scientific dispute
with the subjects over the interpretation of aspects of their data.
He expressed fear to OIG that the subjects will falsify their data
to make them conform to the subjects' scientific hypotheses. The
complainant provided no evidence, however, that the subjects had
falsified their data. OIG concluded that the subjects1 actions in
attempting to withhold the data, though not justifiable, were fully
explainable by their stated desire to publish the results of a
large project that had consumed a considerable percentage of their
professional lives before others had a chance to report on the data
that the subjects had collected, The sheer fact that a scientist
might have a motive to falsify data does not, by itself, give
substance to an allegation of falsification.
     This inquiry is closed and no further action will be taken on
this case.




                           page 2 of 2
